                             United States Attorney Benjamin B. Wagner
                                    Eastern District of California
FOR IMMEDIATE RELEASE                                             CONTACT: LAUREN HORWOOD
Monday, August 06, 2012                                                   PHONE: 916-554-2706
www.justice.gov/usao/cae                                             usacae.edcapress@usdoj.gov
Docket #: 1:12-cr-0118 AWI DLB

               BAKERSFIELD WOMAN PLEADS GUILTY TO THEFT OF
                         SOCIAL SECURITY BENEFITS

        FRESNO, Calif. — Bakersfield resident Louisa Recatune, 45, pleaded guilty today to theft
of Social Security benefits, United States Attorney Benjamin B. Wagner announced.

        According to court documents, between January 2004 and August 2011, Recatune
received Social Security survivor benefits from a legitimate social security recipient who had
died on December 1, 2003. According to the indictment, Recatune married Robert Navejas on
September 4, 2002. At the time of the marriage, she had children unrelated to Navejas.
Recatune and Navejas also had no biological children while together.In January 2003, Recatune
filed an application for auxiliary benefits on Navejas’s SSA record. Recatune sought benefits for
herself and her children. Recatune’s application was denied, however, because she had not been
married to Navejas for long enough. In March 2003, just roughly two months later, Recatune
filed paperwork in Kern County Superior Court to end the marriage with Navejas, and in
November 2003, Recatune obtained an annulment, effectively terminating the marriage as
though it never existed.

        According to court documents, on December 1, 2003, Navejas died at his residence in
Kern County. On January 14, 2004, following Navejas’s death, Recatune filed for survivor
benefits for her and her children under Navejas’s record, never informing SSA that the marriage
was annulled. SSA approved her application and awarded her benefits. Despite her lack of
entitlement, Recatune continued to receive the funds and used them for her personal use.
During this time, Recatune unlawfully received more than $239,000.

       This case is the product of an extensive investigation by the Social Security
Administration, Office of Inspector General. Assistant U.S. Attorney Kirk Sherriff is prosecuting
the case.

        Recatune is scheduled to be sentenced by Chief United States District Judge Anthony W.
Ishii on October 15, 2012 at 10:00 a.m. The maximum statutory penalty for theft of government
property is 10 years in prison, a $250,000 fine, and three years of supervised release. The actual
sentence, however, will be determined at the discretion of the court after consideration of any
applicable statutory sentencing factors and the Federal Sentencing Guidelines, which take into
account a number of variables.

                                             ####
